<html>
<title> - HUMAN RIGHTS ABUSES IN EGYPT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      HUMAN RIGHTS ABUSES IN EGYPT

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2013

                               __________

                           Serial No. 113-147

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-002                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Zuhdi Jasser, M.D., vice chair, U.S. Commission on International 
  Religious Freedom..............................................     9
His Grace Bishop Angaelos, General Bishop, Coptic Orthodox Church 
  in the United Kingdom..........................................    30
Mr. Samuel Tadros, research fellow, Center for Religious Freedom, 
  Hudson Institute...............................................    39
Morad Abou-Sabe, Ph.D., professor emeritus, Rutgers University 
  (former president of Misr University for Science & Technology).    47
Mr. Tad Stahnke, director of policy and programs, Human Rights 
  First..........................................................    55

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Zuhdi Jasser, M.D.: Prepared statement...........................    12
His Grace Bishop Angaelos: Prepared statement....................    33
Mr. Samuel Tadros: Prepared statement............................    42
Morad Abou-Sabe, Ph.D.: Prepared statement.......................    51
Mr. Tad Stahnke: Prepared statement..............................    58

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
Written response from Mr. Samuel Tadros to question submitted for 
  the record by the Honorable Mark Meadows, a Representative in 
  Congress from the State of North Carolina......................    80
Material submitted for the record by Morad Abou-Sabe, Ph.D.......    82


                      HUMAN RIGHTS ABUSES IN EGYPT

                              ----------                              


                       TUESDAY, DECEMBER 3, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

          Global Human Rights, and International Organizations

         and Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 9:08 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations) 
presiding.
    Mr. Smith. The subcommittee will come to order. 
Subcommittees, I should say. This is an important and unique 
day. It is Human Rights Day. And both the Subcommittee on 
Africa, Global Health, Global Human Rights, and International 
Organizations and my distinguished colleague, Ileana Ros-
Lehtinen and her subcommittee are combined today in chairing 
this hearing and raising the issues of human rights abuse in 
Egypt. Today's hearing examines the escalating human rights 
abuses in Egypt. It is fitting that we are holding this hearing 
today on International Human Rights Day, December 10th, because 
we are witnessing grievous violence and other abuses directed 
against religious and political minorities, particularly the 
Copts and other Christians about which our Government and the 
media has said far too little, which seems to be a pattern 
worldwide.
    I would note parenthetically that the persecution of 
Christians is escalating. Witness the slaughter of Christians 
in Central African Republic, CAR. I would note Bishop Nongo of 
the CAR told my subcommittee just a few weeks ago in this room 
that Christians were being targeted simply because of their 
faith, while the United Nations, the United States, and the 
rest the world looked on.
    On Thursday, I will be chairing a hearing on American 
Pastor Saeed Abedini, who was jailed and is suffering torture 
in Iran. Pastor Abedini's wife, Naghmeh, will tell our 
subcommittee on Thursday, and I quote, in part,

        ``While I am thankful for President Obama's willingness 
        to express concern about my husband and the other 
        imprisoned Americans in Iran during his recent phone 
        conversation with Iran's new President, Hassan Rouhani, 
        I was devastated to learn that the administration 
        didn't even ask for my husband's release, when directly 
        seated across the table from the leaders of the 
        government that holds him captive.''

She goes on to say,

        ``My husband is suffering because he is a Christian. He 
        is suffering because he is an American. Yet, his own 
        government, at least the executive and diplomatic 
        representatives, has abandoned him. Don't we owe to it 
        him as a nation to stand up for his human rights, for 
        his freedom?''

Unfortunately, there seems to be a pattern.
    After President Mubarak resigned in February 2011, the 
world hoped for a new Egypt, a just government for all 
Egyptians, which would not make and replicate President 
Mubarak's mistakes, but reality has been just the opposite. 
Horrific anti-Christian pogroms have taken place under each of 
the post-Mubarak governments. For some of these abuses, the 
governments bear the responsibility of inaction. For others, 
they bear direct responsibility. In recent months, 
undercurrents of abuse and contempt for human dignity long 
existing in Egypt have turned into flash floods of violence.
    For example, the Supreme Council of the Armed Forces 
presided over the Maspero protest massacre in October 2011. At 
least 25 people were killed and more than 300 injured, almost 
all of them Copts, when the military drove trucks through the 
crowd and used live ammunition against the unarmed protesters. 
Under the now displaced Morsi government, three low-level 
soldiers involved were charged with minor crimes and received 
2- to 3-year sentences. No commanding officers were held 
responsible for ordering or failing to prevent the deadly 
assaults.
    While Mr. Morsi of the Muslim Brotherhood's Freedom and 
Justice Party at times voiced support for an Egypt that was 
home to both Muslims and Christians, his inaction belied his 
rhetoric. In April 2012, St. Mark's Cathedral, seat of the 
Coptic Pope, was attacked by 30 to 40 Muslim youths. While 
dozens of Copts were sheltering inside, security forces joined 
the mob. Rather than dispersing the crowd they participated in 
the all-night attack or stood idly by as rocks, gasoline bombs, 
and gas canisters were lobbed into the iconic cathedral.
    Despite this, President Morsi denied that the clash was 
sectarian in nature. After Mr. Morsi was removed in July of 
this year, the military ended the Muslim Brotherhood's sit-in 
with violence, killing hundreds of protesters. Tragically, some 
in the Muslim Brotherhood scapegoated the Copts, although the 
Copts had nothing to with the military's violence response. On 
August 14th, the day that will be remembered as the worst day 
for Copts in some 700 years, 37 churches, five schools, and 
three bible societies, four other Christian institutions, and 
many homes and businesses were burned or damaged by mobs. More 
than 100 deaths were documented in the initial spate of 
violence and its aftermath.
    Some Copts had charged the military government in Egypt 
with allowing the attacks on Coptic persons, businesses, 
churches, and homes to continue, often inside of police 
stations and in spite of repeated and direct calls for help, in 
order to solidify government power as an alternative to the 
Muslim Brotherhood as well as to justify their own heavy-handed 
crackdown on the Muslim Brotherhood. The Muslim Brotherhood 
denies any involvement in the attacks occurring across the 
country and has at times condemned them. Yet the Brotherhood's 
Freedom and Justice Party branch in Helwan reportedly posted a 
statement holding the Coptic Pope responsible for Morsi's 
removal and otherwise linked Copts to attacks on the Muslim 
Brotherhood.
    The Brotherhood also called for Friday prayers to be held 
in an evangelical church in Minya after it was occupied and 
converted into a mosque on August 15th. Whoever the attackers 
are, and that is one thing we hope to learn more about today, 
the bottom line is that Coptic citizens are having their most 
basic human rights--freedom of religion, association, and equal 
protection of the laws--denied. We can never rest while human 
dignity, when it is so grossly trampled upon, nor can we ever 
accept the suffering that has marked Coptic life for decades, 
very much including the abduction, forced conversions, and 
forced marriages of Coptic girls and women.
    These abuses have continued unabated, and by some reports, 
have escalated sharply following the Arab Spring, as have the 
abuse of the Egyptian courts to prosecute blasphemy cases 
against Christians, moderate Muslims, and secularists. 
Moreover, despite the nearly $1.5 billion in foreign aid 
American taxpayers gave to Egypt each year, neither the Mubarak 
government nor the Morsi government, or now the military 
government, has seen fit to return kidnapped American children 
Noor and Ramsay Bower, who were abducted by their mother to 
Egypt in 2009, in violation of valid U.S. court orders, to the 
United States. They, along with some 30 other American children 
in Egypt, are forced to live without the love and guidance of 
an American parent who daily fights for their return, while 
being stripped of half of their culture and half of their 
identity.
    In addition, freedom of expression continues to be under 
fire. The current interim government has been arresting and 
jailing journalists critical of the military government, 
jamming the broadcast signals, deporting foreign reporters, and 
otherwise closing the offices of news outlets that are, 
``broadcasting lies.''
    In his September 23rd speech at the United Nations, the 
President stated that his ``approach to Egypt reflects a larger 
point: the United States will at times work with governments 
that do not meet the highest international expectations, but 
who will work with us on our own core interests.'' These core 
interests were early defined in the speech to include the 
``Camp David Accords and counterterrorism'' efforts, but I 
believe mistakenly have not included human rights. Human rights 
and the intrinsic dignity of every human being from womb to 
tomb are important in and of themselves. But for those who fail 
to grasp this, there is another important point to be made. It 
is the strategic interest of the United States to encourage 
governments to respect the rights of their own people because 
governments have failed to do so are, in the final analysis, 
unstable. This should be the abiding lesson of the Arab Spring.
    The President also stated that future U.S. support to Egypt 
``will depend on Egypt's progress in pursuing a democratic 
path.'' Again, it is unclear what criteria this entails. What 
if the democratic path does not include the protection of human 
rights, such as what we saw under the Morsi government and now 
the interim government. It is not democracy per se that is to 
be the goal, but rather duly-elected constitutional government 
that respects minorities, the separation of power, and 
fundamental human rights. Tyranny of the majority is not an 
acceptable option.
    What is clear is that the U.S. needs a new approach. This 
administration's shortsighted approach of not clearly linking 
aid to the protection of human rights in Egypt has been 
unequivocally ineffective. It is my hope that our hearing today 
will shed light on what went wrong and how the U.S. can be more 
effective in protecting human rights going forward.
    I yield to my good friend and distinguished colleague, 
Chairman Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Smith. Thank you 
for your leadership throughout the years on any issue related 
to human rights and thank you for shedding some light on this 
terrible human rights abuse that is going on in Egypt. It is an 
honor to hold this hearing with you. Thank you, sir.
    During the Morsi and Muslim-Brotherhood-led era, we 
witnessed a steady increase in human rights abuses perpetrated 
by the Islamist government as Morsi began to solidify his power 
and crack down on fundamental freedoms of Egyptians. There was 
a precipitous increase in the arrests of journalists, a 
widespread crackdown on opposition demonstrators, wanton 
disrespect for the rule of law, and an overall deteriorating 
state of human rights throughout Egypt. Then this past July, 
the people of Egypt grew tired of Morsi's oppressive regime and 
its blatant disregard for human rights and again, took to the 
streets en masse.
    Since Morsi's removal from power, Muslim Brotherhood 
supporters have terrorized the Egyptian people with violent 
protests, and the end result has left hundreds killed and many 
more injured. The Egyptian military has responded in kind, and 
the interim authorities have moved to initiate restrictive 
assembly laws. And though the military has taken some steps to 
keep Egypt safe and secure, such as conducting operations 
against al Qaeda and the lawless Sinai, the general security 
situation restrictions on civil society and a lack of the rule 
of law and respect for human rights demonstrate that Egypt 
still has a long way to go toward creating a truly democratic 
society.
    While Egypt's interim government has said that it is 
protecting religious minorities, we still see attacks against 
the Coptic Christian community all the time. Though the 
government may not outwardly incite these attacks, it fails to 
provide the adequate protections to prevent them from 
happening. Christians have seen a drastic increase of attacks 
against them as they have been scapegoated by Morsi supporters. 
Horrifying reports of attacks against Christian communities and 
of young Christian girls being abducted and forced into 
marriage with radical Islamists depict the grim reality that 
Christians are currently facing in Egypt. But Christians aren't 
the only groups that continue to suffer. Other religious 
minorities such as Jews, Bahais, Sufi Muslims, Shiites, and 
others, have been targeted by extremists, and women's rights 
are woefully inadequate.
    While the latest draft Constitution in theory has provided 
more rights, in practice, it is so left open to interpretation, 
thus not necessarily affording any more rights to those groups 
who need protection the most. The committee tasked with drawing 
up this new Constitution was not truly representative of the 
interests of all Egyptians. Of the 50 members, only five were 
women, and only four were Coptic Christians. It is the duty of 
the interim government to help shepherd Egypt toward a new dawn 
of democracy. In order for Egypt to return to the path toward 
democracy, the new Constitution must protect the rights of 
women and religious and ethnic minorities, everyone's human 
rights must be recognized, and the political party process must 
be allowed to take root with free, fair, and transparent 
elections.
    I hope that the new draft Constitution will be implemented 
in a way that adequately addresses these concerns and is not 
just simply a document that can be thrown out at a moment's 
notice. The ideals enshrined in this document must be the 
bedrock foundation that can inspire a country that is in danger 
of losing its way.
    A successful democratic transition in Egypt can only occur 
once those protections are respected, solidified and enforced. 
In addition, Egyptian authorities must pardon the 43 NGO 
workers, many of whom are American citizens, who were unjustly 
convicted and sentenced earlier this year and allow the NGOs to 
operate without fear of government reprisals as they help to 
support civil society.
    The path to democracy is a difficult one, but it would be a 
tremendous accomplishment if the people of Egypt can implement 
the democratic reforms they have called for and realize a free 
and functioning civil society. Without a strong basis in 
democracy, any election will fail to achieve the democratic 
results we all hope and pray to see in Egypt. And I thank the 
chairman again for the joint hearing.
    Mr. Smith. I want to thank the distinguished chairwoman for 
her very eloquent statement and for her never-ending efforts to 
combat human rights worldwide. Thank you, Chairman Ros-
Lehtinen.
    Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman, for holding this 
hearing. And I want to echo my colleague to the left. I want to 
associate myself with her remarks. She did a great job. You are 
exactly correct, we need to address this. When we make policy, 
that should be utmost and foremost on our mindset. If we don't, 
then we are, as the Scripture says, a clanging gong and 
tinkling cymbals. So what we want to make sure that we pay 
close attention and the policy that we set holds these people 
to account. We express our concern, our love, and our intent to 
put an end to these human rights violations across the globe, 
but especially in Egypt and that we set the policy in place to 
do that. And I commend you once again for holding this hearing. 
Thank you.
    Mr. Smith. Chair recognizes Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Today 
we hope that we will be sending the message that the people of 
the United States are standing in solidarity with those 
oppressed Christians who are suffering persecution in Egypt. 
That is the message of today. But the greater message is that 
the people of the United States believe in religious freedom. 
We believe that people, no matter what their faith, have a 
right to live their lives as they choose without being 
persecuted or brutalized by either their government or by the 
citizens of the country in which they reside.
    The United States is on the side of those people who 
believe in freedom, and we are on the side of those who are 
persecuted for their beliefs, whether they be Christians or 
whether they be Muslims, whether they be Buddhist, or whether 
they be atheists. The fact is our country was founded on those 
principles. But far too often, our Government has not had the 
courage to act upon those beliefs which are supposed to be the 
fundamental beliefs that we have held since the beginning of 
our country.
    So today, Mr. Chairman, I would hope that we reaffirm not 
just in words, but are willing to reaffirm in policy and in 
deed that when people, especially as we focus on the Christians 
in Egypt, are being brutalized, that we will not stand idly by 
and not just express our words but stand with those in Egypt 
who would end that oppression. And this, today, unfortunately, 
there seems to be confusion in our Government as to whose side 
we should be on. We are on the side of those people who want 
freedom and not radicals who would repress their own fellow 
citizens.
    So today we welcome our witnesses. I thank the chairman for 
calling this hearing so that we can express these very 
important sentiments of solidarity to a people who are being 
persecuted. Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Chairman Rohrabacher.
    Ms. Frankel.
    Ms. Frankel. Thank you. I am honored to be here. Thank you 
for being here.
    I join Mr. Rohrabacher. I think it was last month when we 
went to Cairo. And we met with General al-Sisi and Acting 
President Mansour, and also we met with the Coptic Pope there. 
It was a very short but interesting visit. I am really just 
looking forward to hearing what you have to say. When we were 
there, we were assured by General al-Sisi and President Mansour 
that they were redrafting a Constitution. And that this would 
be the first critical step back toward democracy. So, of 
course, I would be interested in hearing about that.
    And of course, the Coptic Pope did talk about some of the 
repression and abuses. So I would certainly be interested in 
hearing about that. And again, I thank you for being here.
    Mr. Smith. Thank you very much, Ms. Frankel.
    Like to recognize Chairman Frank Wolf and just note 
parenthetically that our first witness, Dr. Zuhdi Jasser, is 
with the U.S. Commission on International Religious Freedom. 
Mr. Wolf, in 1998, was the author of the International 
Religious Freedom Act, which not only created a State 
Department effort and an office, but also a parallel 
organization that has spoken truth to power ever since when 
State has fallen short. More importantly, it has been 
absolutely robust in bringing human rights issues and religious 
freedom issues to the forefront. That law was written by 
Chairman Wolf.
    Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman. I will be very brief. I 
don't serve on the committee. But I want to thank Mr. Smith and 
all the members of this committee. This is almost the last 
bastion in the Congress that really holds hearings and deals 
with these issues. Last week, the House of Commons did a 3-hour 
debate. You couldn't get a 3-hour debate in the House or the 
Senate if you paid for it. And if it were not for the members 
of this committee, all of you, this issue may very well go 
away. And Mr. Rohrabacher talked about our obligation. 
President Reagan, who he was a speechwriter for, said that the 
words in the Constitution were a covenant not only with the 
people in Philadelphia in 1787, but with all the people in the 
world. They are a covenant with the people of Cairo, their 
covenant with the people of Alexandria, they are a covenant 
with the people of the people all over the world. I believe 
that we are breaking the covenant at this very moment. And a 
covenant is more significant than a contract. We are breaking a 
covenant. And I visited Egypt a couple months ago and met with 
women's groups. They all believe that our Government was a 
strong supporter of the Morsi government. We met with a Muslim 
group. That they believe that our Government was the strongest 
supporter of the Muslim Brotherhood. We met with the Christian 
groups. They all believe that we were the strongest supporter 
of the Morsi government. They believed that Anne Patterson and 
the American Embassy was not a sanctuary of freedom, but it was 
basically a support group for the Morsi government. And also we 
met with a number in the secular community.
    So again, I thank the committee. I think we could lose 
Egypt. I think we are really facing a point, if this 
administration doesn't deal with certain things, and they are 
going to be here for the next 3 years, we could lose Egypt. And 
then the stories will be about who lost Egypt. And the answer 
will be, the Obama administration and the Congress lost Egypt 
because they did not side with the people of Egypt who wanted 
freedom and democracy against the Muslim Brotherhood. So I 
would thank Mr. Smith and all the members here. If it were not 
for you guys, men and women, this issue just would not be dealt 
with.
    Mr. Smith. Thank you, Chairman Wolf.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, for holding this 
important hearing. Thank you for being here. It is good to see 
you. You know, obviously, the transition of power is never 
easy. It is always combined with, not only cultural, but 
religious differences, among protests many times and trying to 
scream for power. What I am interested in hearing from you this 
morning is how can we help provide a standard. I think what we 
have heard today has been that there is really not a dependable 
standard on what we expect. And if you go all the way back to 
Cuba and some of the others we knew what those were about. I 
lived in Florida at the time. And I knew the human rights 
abuses that were happening there because we could feel them. We 
heard the stories. And yet the story is not getting told, 
whether it is in Egypt or across the Middle East. So how can we 
as Members of Congress come alongside you, support this effort, 
and make sure that it gets highlighted.
    At your same table, we had people talking about NGOs and 
how they had been convicted in absentia and how they felt like 
Congress had left them out and was not bringing those issues to 
the forefront. And so I look forward to hearing your testimony 
on how we can, not only highlight this issue, but how we can 
make a difference. For those that are persecuted, that perhaps 
do not have a voice, it is critical that we have this. As 
important as so many of the issues are, it is critical that we 
use this not to ignore human rights abuses in favor of economic 
stability, or whatever it is, but let's tie those together. And 
I look forward to hearing your testimony. And I thank you, Mr. 
Chairman.
    Mr. Smith. Thank you very much, Mr. Meadows.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. And thank you, Chairman Ros-Lehtinen, as well. This 
is such a very important issue. And because of your leadership, 
we continue to focus on this. And it is so very important to 
me, my constituents. So I appreciate the opportunity again to 
participate since the safety of Coptic Christians in Egypt is 
something that I have worked on since I have been in Congress. 
As an Orthodox Christian and a member of the International 
Religious Freedom Caucus, I am especially alarmed at the 
dwindling number of Christians in Iraq, Syria, Turkey, Egypt, 
and throughout the Middle East. While this hearing today 
focuses on Egypt, and it should, I want to take a moment to 
reiterate that Christians are facing persecution across the 
region. Christianity is not new to the Middle East, and we must 
not forget that the ancient indigenous communities of Coptic, 
Syrian, Assyrian, Catholic, and Greek Orthodox communities that 
have lived and thrived in the Middle East for thousands of 
years.
    Today in the face of ongoing unrest, these Christians have 
exhibited bravery in the face of existential danger, these 
attempts that we see to push Christians from their ancestral 
homeland. Let us not forget that ``Coptic'' translated means 
Egyptian. These attempts must be denounced by all. I thank the 
chairman, of course, Ms. Ros-Lehtinen and Chairman Smith, for 
holding this hearing today, and I remain committed to working 
with my colleagues in the House to continue bringing light to 
the situation in Egypt and across the Middle East.
    I would like to thank the panelists again for being here 
today. I thank them for their testimony. I have met with many 
of you to discuss the topic at hand over the past year. And 
while I wish I could say that things have improved over that 
time, I am afraid they have not. So let's continue to work on 
behalf of these wonderful people. Thank you so very much, Mr. 
Chairman.
    Mr. Smith. Thank you very much, Mr. Bilirakis.
    I would now introduce our first witness, on the first 
panel, who is Dr. Zuhdi Jasser, who is a member of the U.S. 
Commission on International Religious Freedom. He is also the 
founder and president of the American Islamic Forum for 
Democracy. Dr. Jasser is a first-generation American Muslim 
whose parents fled the oppressive Baath regime of Syria. He 
earned his medical degree on a U.S. Navy scholarship and served 
11 years in the U.S. Navy. He achieved the rank of Lieutenant 
Commander. His tours of duty included medical department head 
aboard the USS El Paso, chief resident at Bethesda Naval 
Hospital, and staff internist for the Office of Attending 
Physician for the U.S. Congress.
    He is recipient of the meritorious service medal. He is a 
respected physician currently in private practice, specializing 
in internal medicine and nuclear cardiology. He is the past-
president of the Arizona Medical Association. He has been a 
frequent speaker on behalf of human rights and religious 
freedom, has been before our subcommittee before. We have 
always benefited greatly from his wise counsel and insight. Dr. 
Jasser.

STATEMENT OF ZUHDI JASSER, M.D., VICE CHAIR, U.S. COMMISSION ON 
                INTERNATIONAL RELIGIOUS FREEDOM

    Dr. Jasser. Thank you, Chairman Smith. And I want to thank 
the members of Subcommittees on Africa, Global Health, Global 
Human Rights, and International Organizations and on the Middle 
East and North Africa for holding this very important hearing 
on human rights in Egypt and inviting the U.S. Commission on 
Religious Freedom to testify.
    With your approval, I would like to submit my written 
testimony which also reflects what we have learned in our 
delegation to Egypt in February for the record.
    Mr. Smith. Without objection, so ordered.
    Dr. Jasser. Today could not be a more appropriate day to 
hold this hearing, given that 65 years ago, 48 nations in the 
U.N. General Assembly adopted a remarkable document that is 
relevant today as it was then, the Universal Declaration of 
Human Rights. Yet today, too many governments including Egypt 
fail to honor human rights. Among the recent convulsions in 
Egypt, few have been more shocking or emblematic of the January 
2011 revolution's derailment then the Egyptian security forces 
killing more than 1,000 demonstrators in August and then the 
horrific attacks by extremists in the Muslim Brotherhood 
supporters against the country's Coptic Christian population. 
Today I want to highlight the plight of the Copts and the other 
religious minorities and Muslim dissidents, and briefly review 
the new Constitution and conclude with recommendations on 
protecting religious freedom for everyone in Egypt.
    Since the transition's beginning, Egyptian human rights 
activists have been concerned that radical groups have advanced 
the country with detrimental effects on fostering an open civil 
society and democratic reform and improving freedom of religion 
or belief. During former President Morsi's year in power, 
sectarian rhetoric and incitement increased significantly with 
conservative clerics and extremists without consequence or 
accountability, fanning the flames of hatred.
    The most vilified groups included Christians, Shi'a, 
Bahais, and all religious minorities. In fact, five Shi'a were 
lynched to death in June as a consequence of increased 
sectarian incitement to violence by jihadi and Salafi groups. 
While the government has failed to bring to justice the 
perpetrators of sectarian attacks, the courts have continued to 
charge, convict, and imprison Egyptian citizens for blasphemy, 
concept, and defamation of religions. Since Egypt's 2011 
revolution, our Commission has observed a significant increase 
in these cases, with disfavored Muslims being the most 
targeted, however, Christians are disproportionately affected.
    In September 2013, just a few months ago, a leading 
Egyptian human rights organization reported a significant surge 
in religious defamation cases and identified 63 cases of 
individuals, 41 percent being Christian, a percentage out of 
proportion to their population. The Copts are particularly 
affected and victims of impunity for those who target them. 
Besides directly violating religious freedom, blasphemy and 
defamation of religion laws fuel Egypt's longtime impunity 
problem by provoking assaults against Copts and other religious 
minorities for alleged blasphemous speech.
    Large-scale attacks on Christians during 2011 resulted in 
the deaths of dozens and injuries to hundreds with the 
perpetrators remaining unpunished to this day, inviting further 
violence. Following Morsi's July ouster, violent attacks again 
increased, targeting Copts and other Christians. Since mid-
August, at least seven Copts have been killed and more than 200 
churches and other places where Christians congregated have 
been assaulted, many of which destroyed. In October, four Copts 
were killed, including two children. Besides Copts, other 
vulnerable religious minorities have faced assaults on their 
religious freedom.
    My written testimony briefly reviews the status of the 
Bahais, the Jehovah's Witnesses, and the continued growing 
anti-Semitism. Let me note here that Egypt has banned the Bahai 
faith and Jehovah's Witnesses since 1960s, and then 2012 
material vilifying Jews continued to appear regularly in 
Egypt's state controlled and semi-official media.
    Egypt's 50-member constitution committee recently completed 
its work and sent the final draft to the Egyptian interim 
President. The draft will be put to referendum coming this 
January. An initial reviews shows the removal of some 
problematic provisions from the suspended 2012 Constitution, 
and other positive additions, although how the provisions are 
interpreted and implemented will be crucial. For example, 
Article 64 of the new draft provides freedom of belief being 
absolute. Article 65 broadly guarantees freedom of thought and 
opinion, and 53 prohibits discrimination on the basis of 
religion, among other grounds. But like the Morsi era 
Constitution, Article 64 limits the freedom to practice 
religious rituals and establish practices of worship to only 
three divine religious: Islam, Christianity, and Judaism, 
thereby not allowing the Bahai community to exercise their own 
rights and establish places of worship. And even that freedom 
is limited with Christians having limitation on being able to 
build new churches and other manifestations of that.
    In the end, our recommendations are, number one, due to 
Egypt's failure to protect the religious freedom and even the 
lives of its people, USCIRF, for the third consecutive year, 
recommended that the U.S. designate Egypt a Country of 
Particular Concern. The U.S. must urge Egypt to repel its 
contempt of religion and related laws, its Penal Code, and 
discriminatory decrees against religious minorities. Given the 
continued violence against Copts and other religious 
minorities, the U.S. should press Egypt to prosecute 
government-funded clerics, officials, and others who incite 
violence, and urge Cairo to bring the violent to justice.
    Finally, the U.S. should refuse to certify the disbursement 
of the appropriated $1.3 billion in foreign military financing 
to the Egyptian military until the Egyptian Government 
demonstrates that it is using some of the FMF funds to 
implement policies that protect freedom and related rights. 
Once the Egyptian Government so demonstrates, it should be 
urged to ensure that its police implement a comprehensive plan 
to protect religious minority communities in their places of 
worship. Congress should require the State Department to report 
every 90 days on the Egyptian Government's progress on these 
and related recommendations. The treatment of Egypt's religious 
minority communities is a barometer of the country's well-
being. If the Egyptian revolution is to succeed, nothing is 
more important than ensuring that Egypt's Government recognize 
the full freedom of religion or belief being a fundamental 
human right. For the sake of stability and security, and 
because of Egypt's international human rights commitments, the 
U.S. Government should urge Egypt to choose the pathway to 
democracy and freedom. Thank you.
    Mr. Smith. Dr. Jasser, thank you so very much for your 
leadership and your extraordinary statement.
    [The prepared statement of Dr. Jasser follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. In his testimony, Bishop Angaelos, His Grace 
Bishop Angaelos, makes the point that religious minorities in 
general, Copts, Jews, Shiite, Sufi, and Bahai, are suffering 
attacks, in large part, because of the breakdown in law and 
order. You have pointed out that although the true test will 
be--there are changes being made in the Constitution--the true 
test will be as to how the Egyptian Government interprets and 
implements the new documents once passed by referendum.
    Is the Constitution really going to make a difference in 
the abuse of blasphemy laws? You also point out that there is a 
surge in religious defamation cases, particularly since January 
2011, including in the 2 months after Morsi was removed from 
power. One hundred percent of the individuals who were accused 
and tried were found guilty. Maybe you could speak to what is 
causing this surge in blasphemy cases, and again, will the new 
Constitution mitigate that abuse?
    Dr. Jasser. Thank you, chairman.
    These are really key questions, in that, you know, we can 
always try to give a government a honeymoon period, if you 
will, as they reboot and try to course correct their democracy. 
But the bottom line is that there is a lot of evidence to show 
that while there is a rush to take to trial those who are 
arrested or brought to justice supposedly for blasphemy and 
restrictions on freedom of speech, those who commit acts of 
violence are not brought to justice.
    So certain phrases in the Constitution that we see, some of 
the articles I mentioned are hopeful, there are some things 
that we should be concerned about, in that they have a 
limitation on freedom of speech discussing incitement to hate. 
It is not the standard that we agreed to even at 1618 that 
talked about limitation on incitement to violence, or imminent 
violence. That is not the standard they are using. So there is 
a large, gaping hole there that can allow the current regime, 
the current government to continue in a way that would not 
respect human rights and freedom of speech. And there is an 
opportunity now.
    I think as much as there was clear direction downward and 
backward during the Morsi regime in which there was a loss of 
human rights, the Constitution was an Islamist document that 
was based in Sharia and other aspects that were not based in 
freedom. Now is an opportunity. And I think what we need and 
our recommendation that we are laying out--is that our policy 
needs to be linked to religious freedom. What happened is that 
you saw the violence happen in August against the Coptic and 
Christian communities and it took until October until there was 
actually a mention that we would limit funding and restrict 
some of the military funds. So there was no connection there.
    Sometimes it was referred to as criticism of the 
Brotherhood. And meanwhile, as many of the other members have 
stated, it is being interpreted by the world that we did 
nothing during the Brotherhood year, and now we are doing 
something once the Brotherhood have left and the people have 
made a statement. So unless we do things and link them to 
religious freedom, they are going to be misinterpreted. It 
doesn't mean we shouldn't continue to put pressure because of 
the limitations of the current Constitution and the fact that 
it has just been a piece of paper, and the only way to make it 
real is to hold them accountable with measurements every 90 
days, as we laid out, and then linking that to cases.
    The Hegazy case, the Asfour case, and other cases in which 
people have been put in jail. These human beings are depictive, 
as you will hear from other testimony, of the reality on the 
ground, which is very different than the Constitution.
    Mr. Smith. My time is just about out. But I would just note 
parenthetically that in the last foreign operations 
appropriations bill, Frank Wolf, Trent Franks, Kay Granger, and 
I, and others, included language conditioning our aid on 
religious freedom. Sadly, it was waived by Secretary Clinton.
    Mr. Connolly.
    Mr. Connolly. Welcome, Dr. Jasser.
    Dr. Jasser. Thank you.
    Mr. Connolly. From your testimony, how would you compare 
the issues of religious freedom in Egypt between the Morsi 
government and the current government?
    Dr. Jasser. Well, it is hard to judge the current military 
government since they have only been still getting their 
organization together. But I think on the ground, we see the 
Constitution shows some improvement. There have been certain 
provisions from the Morsi Era Constitution that have been 
removed. We have seen some aspects that have gone. There is one 
article, 235, that talks about separating from government 
provisions the building of religious structures, which I think 
would be very important for the Coptic community, to control 
the building of their own churches, that has for long been 
authorized. There have been no new churches authorized. So 
there are some things we are seeing that would be hopeful. On 
the ground----
    Mr. Connolly. With respect to religious freedom.
    Dr. Jasser. With respect to religious freedom----
    Mr. Connolly. I am just clarifying what you are saying. 
You're talking about--because I want to be very clear. There 
are obviously aspects of the draft Constitution, current draft 
Constitution that Americans would find abhorrent. The carve-out 
for the military, the lack of civilian oversight of the Defense 
Minister. Those are not democratic provisions, those are most 
certainly protections for a military government that are not 
democratic provisions. We would agree?
    Dr. Jasser. Yes, sir. And----
    Mr. Connolly. So what you are referring to is this 
Constitution draft, however, is better than the one previously 
promulgated with respect to religious freedom.
    Dr. Jasser. Yes, sir. And it is not a binary choice in that 
the voice of the people in Egypt I think could be better than 
either. What the Brotherhood brought to the table with Morsi 
and what currently is being brought to the table by President 
Mansour and this constitutional committee. But if you look at 
Morsi's Constitution, every minority abandoned the process. 
This process has still engaged many of the minority communities 
in the committee itself. But what it is going to produce--and I 
will agree with you in that on the ground there has been little 
change as far as religious freedom. The impunity for acts of 
violence--nobody has been brought to justice for what happened 
to all of the churches that were desecrated in August. Very 
little justice has been brought with that. So these are the 
things that need to be targeted. And our Commission has been 
built on the fact that when religious freedom is protected, the 
rest of society will be healthy. When it is not protected, it 
will deteriorate and all the other things you are talking will 
never be a success.
    Mr. Connolly. Right. Just want to make sure that we got 
that clear on your record. I thank you for your testimony. I 
know we are under a time bind today. So appreciate you being 
here. Thank you, Mr. Chairman.
    Mr. Smith. Chairman Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Dr. Jasser, thank you for your service on the Commission. 
And for several years the Commission has argued that Egypt 
should be placed on the Country of Particular Concern list when 
it comes to the human rights situation there. What headway do 
you see that we are making in that? What progress? And you also 
recommend about the disbursement of aid that we were talking 
about, that the U.S. should refuse to certify the disbursement 
of our military aid to the Egyptian armed forces. We have 
already seen many Gulf nations pledge sums of money that dwarf 
our $1.3 billion.
    Do you worry that if we cut off aid Egypt will get that 
money elsewhere? We hear that a lot when we talk about 
conditioning our aid and leveraging our aid, and that we would 
lose whatever leverage we have left and these human rights 
abuses will continue. So if you could address that one as well.
    And would you favor an approach in which we transition the 
foreign military assistance money that we give to economic 
support funds in which that money could still go to Egypt, but 
would go to building up civil society, democracy promotion 
programs, and other security programs that Egypt would need in 
order to maintain its stability and security? Thank you, sir.
    Dr. Jasser. Thank you, Madam Chair Ros-Lehtinen, and I 
appreciate the opportunity.
    There is no doubt, as we designated Egypt as a CPC in 2011, 
2012 and 2013, it has not only not improved, it has continued 
to worsen. So not only does it deserve that designation, but 
2012, especially under Morsi, demonstrated significant strides 
backwards. And this is why you saw in revolution 2.0 in Egypt 
10 times more demonstrations of people against that government 
than you saw in the first revolution.
    And as a result of the criteria by which our Commission 
works in designating CPC status, Egypt fits every one of those 
as far as specific targeting, egregious offenses, and religious 
freedom. As far is the aid is concerned, I believe, as you 
mentioned, there can be 90 days review in which that aid 
doesn't become a lever that you can only pull once. In that it 
is a constant measure of the success or failures that that 
society is making.
    If you use, and this is one of our primary criticisms of 
the current approach of the State Department, is that often, as 
was mentioned by Chairman Smith, because we were so late and 
because then it was waived in 2011, 2012, the certification was 
waived, there are specific benchmarks that was legislated by 
this body that Egypt should meet, in elections and human 
rights, et cetera, that it has not met. And when it was ready 
to decertify that funding when we should have with the 
Brotherhood, it did not happen and it was waived. And now it 
appears when we are doing it in October 2013 that we are 
somehow rewarding the Brotherhood. And this is why we have to 
get the timing right, but that doesn't mean we shouldn't link 
that to civil society, progress, and methods in which we link 
it every 90 days to progress on the ground that protects 
women's groups, that protects religious minorities, shows that 
some of these cases that we have highlighted in my written 
testimony are actually being released and we have a program in 
which Members of Congress can identify individuals in jail that 
they can then promote as being examples of how Egypt and other 
countries can fix themselves.
    Ms. Ros-Lehtinen. Thank you very much. And thank you for 
your work.
    Dr. Jasser. Thank you.
    Mr. Smith. Ms. Frankel.
    Ms. Frankel. Thank you again and welcome and thank you for 
your testimony.
    So I have a number of questions. I will try to get them out 
first and you can then try to answer them.
    Again, first of all, the timetable on the drafting of the 
Constitution, and do you think that there is a transition back 
to democracy? Although I am not really sure after the coup what 
exactly democracy is in Egypt. But, as I said, when we were 
there we were told there was going to be this new Constitution, 
an election for a Parliament, and then an election for a 
President.
    And the--you expressed, I guess, disappointment or 
frustration over the fact that there has not--there has not 
been a justice system handling this oppression. Is the 
infrastructure there to do that?
    Dr. Jasser. That is a great question, Congresswoman 
Frankel. And I believe the infrastructure is there. They have 
the funds, some of which we give them, that we could tie to 
that and hold them accountable and show that if they have 
certain cases that we could identify, whether it is the Mohamed 
Hegazy case, who converted to Christianity and wants his I.D. 
to be able to show that or another case of an individual who 
wrote on Facebook criticism that Mohamed has been in jail for 3 
years, or the case of a Shitte individual who was imprisoned 
because he did a ritual that wasn't traditional, according to 
Islam.
    So there are ways that we could tie representations in 
their justice system that would show whether they genuinely are 
moving toward democracy and rule of law or whether it is 
continuing to be the same old system in Egypt and just shifting 
around of the chairs on the deck.
    Ms. Frankel. How are the prosecutors and the judges being 
appointed?
    Dr. Jasser. You know, the traditional way--I mean, oddly, 
Mansour came out of the Supreme Court system there.
    Ms. Frankel. Right.
    Dr. Jasser. It is very local oriented and a historical 
system in Egypt that is based on a very nepotistic tribal 
system. It is certainly not a balanced system. And this is one 
of the things we should look at, as Congressman Connolly was 
pointing out, is, do they have a balance of power? Do they have 
other aspects of democracy that we would hold as standards and 
should be part of their systems and have not been? But that is 
really beyond our mandate at the Commission. I think if you 
hold accountable standards of international religious freedom 
along with it, it will expose some of these aspects that have 
put into place and allowed longtime judges.
    One of the things the Brotherhood and President Morsi did 
do was start to put even more radicalization as far as some of 
the judges. And as he started to replace some of those judges 
was when you saw a rise of the people against him.
    Ms. Frankel. Thank you.
    Mr. Smith. Mr. Weber.
    Mr. Weber. Chairman, I am going to pass this time.
    Mr. Smith. Chairman Rohrabacher.
    Mr. Rohrabacher. So here we are in this quandary that we 
want to make sure that a standard that is an honest standard, 
not just protection of Christians, but protection of the 
religious rights of all people of Egypt, are protected. And we 
have just gone through a phase where there was an expansion of 
repression and persecution. And we know that that phase was a 
result of a political move toward a certain direction.
    And those who thwarted that move and thwarted that effort 
are now in charge. And we, as you say, the timing, if we try to 
maintain that standard, the timing would have us being tough 
and perhaps withdrawing some of our support from the current 
group that actually stopped a bad trend. Maybe you could help 
us out on how we can get out of this quandary.
    Dr. Jasser. Thank you, Congressman Rohrabacher. I think the 
way to get out of it is to realize the Egyptian population is 
not a victim of basically worse and the worst. And the January 
2011 revolution was against an era that was repressive and 
brought forth all of the things that had us designate them as a 
CPC in 2011. And we should have held them accountable to 
religious freedom standards at that time. And then it went even 
worse when democracy was a manifestation of simply elections 
and became mob-ocracy rather than principles of religious 
freedom. So to move forward, I think we have to be principled 
and link our funding to demonstrations on the ground, building 
civil society, having benchmarks that in every 90-day period 
that show that they are making progress in defending 
minorities, in protecting churches, in prosecuting those who 
burn down churches just as quickly as they prosecute free 
speech issues, which should stop and no longer limit free 
speech. So all of these things can be done.
    Mr. Rohrabacher. Let me ask you, then, on this we are now 
selling spare parts to the military for equipment that we 
provided Egypt in the past. Just at a time when there is an 
expanding insurgency or a challenge to peace in the Sinai and 
elsewhere.
    Are we being, and will we be viewed as hypocrites about our 
beliefs and freedom if we provide those spare parts knowing 
that if this government goes down and those who succeed, and 
then these insurgency movements would impose harsher 
restrictions on the people, are we being hypocritical?
    Dr. Jasser. Well, I don't believe so because I think that 
ultimately if we let the world create the narrative of what we 
are doing at every level, whether it is at spare-parts levels 
or at funding, then it will appear that way. But if we allow--
if our President and our State Department constantly makes it 
clear what the standards of religious freedom are and what we 
link those who at every speech in the Rose Garden and every 
moment the Secretary has an opportunity to mention it, then it 
will be clear what our standards are. But if we let those go 
and we lose opportunities and come and make a statement on 
funding 3 months later after things happen, then the narrative 
will be that we are hypocritical. But we should set our own 
narrative on a daily basis, not on an every quarterly basis.
    Mr. Rohrabacher. I would hope that we don't do anything 
that we weakens, like denying spare parts to the military.
    Dr. Jasser. Right.
    Mr. Rohrabacher. Weakens their ability not to have even a 
worse regime come into power. And I would hope we do not do 
that. But I agree that the United States must really speak with 
an honest voice on these standards.
    Thank you very much for your testimony.
    Mr. Smith. Thank you, Chairman Rohrabacher.
    Mr. Meadows.
    Mr. Meadows. Thank you for being here. Thank you for your 
service to our country, not only here but in the Navy as well.
    Dr. Jasser. Thank you.
    Mr. Meadows. We greatly appreciate your insight. Three 
things: One is the inconsistency in terms of the Egyptian 
people and what they need to look to us in terms of that 
standard. I am very concerned that over time, the image of us 
supporting one regime over the other is very real to the 
Egyptian people. And in light of us trying to address these 
human rights violations now in terms of religious persecution, 
the image is out there that we supported the Morsi regime, we 
don't support this one, when in actuality, it is more of 
supporting freedom in the respectful rule of law across the 
board. So how do we address that uniquely?
    I think the other one is, how do we have a respect for and 
a love for the Egyptian people and for many of them of a Muslim 
faith that--where it does not get viewed as we are trying to 
put Christianity and make a Christian Egyptian versus just 
trying to stand up for those that are being religiously 
persecuted? I think it is a dangerous tightrope that we walk, 
because the perception many times is that we want our democracy 
and our religion to be one that is placed on the Egyptian 
people. So if you could speak to those two things. And if we 
have time, I will come back to a third question.
    Dr. Jasser. Thank you, Congressman Meadows. This is so 
important, I think the paradigm has shifted from the old era in 
which diplomacy was based on the lesser of two evils. And as 
Secretary Rice said in 2005 in Cairo that somehow we were 
choosing trying to side with security over freedom, and we got 
neither. And I think ultimately the Commission's purpose has 
been to highlight the fact that religious freedom when it is 
lifted up can then bring with it a more healthy society. And I 
think how we get our credibility back is to continue to lift 
that up repeatedly. And the problem is that is there is an 
opportunity right now.
    And, yes, there will be an image problem because of the 
lost opportunity in 2011, 2012, and now it appears that somehow 
our standards are to reinforce further authoritarianism. And 
when, in fact, what we are doing is laying that out as a course 
correction in democracy. And the only way we can do that is by 
siding with the people and siding with principles. Because 
regardless of the way the policy is manifesting from the State 
Department or from the White House, the bottom line is is the 
majority of Egyptians are not looking favorably at the U.S. 
these days. And that is because of the lack of clarity in 
principle and because we haven't sided with the majority of 
Egyptians that went to the streets, that still have a problem 
not only with the Brotherhood, more so but still with the 
current government and are seeking the means to move forward. 
And we should tie some of that military aid to a civil society 
progress because it is going to take a generation, years to 
improve these things. It is not going to happen overnight.
    And the last point you made about the, sort of the sense 
that this is just a Christian issue for America. It is not. I 
think the religious freedom issues of the Copts is tied into 
the Bahais, is tied into Muslims who are targeted, from Bassem 
Youssef, who is the Jon Stewart of Egypt, who is targeted, to 
so many of the Shitte Muslim community that are called deviants 
by some of the clerics and judges when, in fact, they don't 
have religious freedom to practice their own rites. And others, 
Muslim dissidents that are part of the majority, the millions 
that went to the street against the Brotherhood were 90 percent 
Muslim that did not want the Brotherhood, and we forget that, 
and our policy should articulate that.
    Mr. Meadows. Thank you so much. I yield back.
    Mr. Smith. Mr. Cotton.
    Thank you, Mr. Meadows.
    Mr. Cotton. Could you elaborate just a little bit on the 
point about the majorities that have taken to the street, both 
under the Morsi regime at its end and also in the last 6 months 
since General al-Sisi and the military reclaimed power, and how 
much, if any, of the focus of those majorities is on the issue 
of religious freedom, religious liberty of minorities there?
    Dr. Jasser. Well, I think if you follow Facebook traffic, 
social media, a lot of them have looked at cases like the 
Asfour case, the Hegazy case, and others, and see these as 
individuals that are persecuted that are becoming--Bassem 
Youssef became an icon because he challenged. He was arrested 
because on his TV program he supposedly was insulting Islam, 
which they equated to insulting the President, President Morsi.
    This is a problem not only with the Islamists, but you are 
finding similar limitations in speech in the Mubarak era and 
maybe even in the current regime. So these things need to be 
highlighted and underscored as being one of the primary 
pathologies that need to be corrected. The majority of people, 
if you look at their social media and what brings them to the 
streets, is that they want these issues highlighted by leaders 
of the free world.
    Mr. Cotton. In the United States we have the First 
Amendment, and it is important, it is first, after all, and it 
includes freedoms of religion, speech, press, and assembly. And 
a certain level of those are all linked in man's God-given 
ability to reason together. Is there a sense in those 
majorities in Egypt, in your opinion, that threats to the 
rights of religious minorities are actually threats as well to 
the political and the speech rights of the majority?
    Dr. Jasser. When we went to Egypt in February, we met with 
a number of different representatives from various religious 
minority groups, from civil society groups. We met with a very 
impressive women's rights group. And all of them said how much 
they dreamed of an Egypt that would bring those principles 
forward and that for too long those principles have not been 
defended from their government and that they seek the means to 
change that.
    Now, the issue is, how does that transition, how do those 
principles on the ground transition in the infrastructure and 
the leadership? And I don't think, if the U.S. takes a pass on 
being open about that, that that is going to happen. I think 
the West needs to be involved in that transition process and 
link some of our aid.
    Now, if we decrease our aid, will they get it from 
elsewhere? They may. But they still want Western help in doing 
this, American help, because they know the principles that we 
share in protecting minorities.
    And the rule of law is important, and this is why some of 
the cases are so important. What you articulated as our First 
Amendment respect, many in Egypt still for decades have not 
understood the respect of the rule of law. And that is why we 
have to tie our relationship to them to cases that respect the 
rule of law.
    Mr. Cotton. Thank you.
    Mr. Smith. Mr. Bilirakis.
    Thank you, Mr. Cotton.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
And again, thank you for allowing me to sit on the panel today 
as well.
    Dr. Jasser, thank you for all your good work. I really 
appreciate it. And of course thank you for your service to our 
country as well.
    Could you speak to how the United States, the State 
Department, prioritizes Coptic Christians in their approach to 
the U.S. policy to Egypt? And do you think more can be done by 
the State Department to urge Egypt to respect the rights of 
religious minorities?
    Dr. Jasser. Well, certainly when we have engaged the White 
House, NSC, and State Department, they certainly have expressed 
similar concerns about the targeting of Coptic Christians and 
in our meetings seem to respect that. Now, however, if you look 
at how frequently it is mentioned publicly and brought from 
statements from the President or from the Secretary of State, I 
would say that it is not enough. We sent a letter to the 
President in September talking about these things, and we have 
not gotten a response yet from the Secretary or from the 
President about these issues and our concerns of what happened 
in August to the Coptic community.
    So I would tell you, as an independent commission that 
seeks to highlight religious freedom concerns, we have not been 
as happy with the response from the administration as could be 
and this opportunity to use the plight of the Coptic community 
to set Egypt in the right direction for religious freedom, as 
they are moving away from the Brotherhood era, away from some 
of the mistakes they made after the revolution, but toward a 
better future rather than back toward what they had during the 
Mubarak era or some of the same problems that happened under 
the Brotherhood.
    Mr. Bilirakis. Let me ask you a question. The Coptic 
community and the Christian community in general, of course we 
care about these issues affecting our brothers in Egypt. What 
can my constituents do? What can they do to influence this 
administration with respect to this and make it a top priority 
of this administration and the State Department? What would you 
suggest?
    Dr. Jasser. I think our constituents can do what we are 
trying to do here, what all of you by being here and listening 
have done, to continue to press our State Department, press our 
not only elected officials, our media, our universities to 
recognize what Pew and others have studied repeatedly, the 
linkage of religious freedom to healthy societies, the linkage 
of religious repression to sick societies. And that once we 
highlight that, and certainly there are so many other issues on 
America's plate, but if we ignore this issue, societies like 
Egypt that are pivotal to American security, not only because 
of Egypt itself, economics, but the Camp David Accords and so 
many other things will fall apart in the Middle East if we 
don't protect religious freedom in Egypt. And your 
constituents, I think, can have a much larger voice than all of 
us here by reminding their leaders, the media, and others to 
pay attention to religious freedom.
    Mr. Bilirakis. Thank you very much. I agree 100 percent. 
Thank you so much. I yield back.
    Mr. Smith. Thank you so much as well. Thank you for your 
extraordinary testimony, your expertise and counsel, and we 
benefit always when you testify.
    I would like to now ask our second panel to make their way 
to the witness table, beginning first with His Grace Bishop 
Angaelos, who is the general bishop of the Coptic Orthodox 
Church in the United Kingdom, the ancient church of Egypt, and 
the largest Christian denomination in the Middle East. Bishop 
Angaelos was born in Cairo, Egypt, and emigrated to Australia 
during his childhood with his family. In 1990 he returned to 
Egypt to attend monastery, where he was consecrated a monk. In 
1995 he was delegated to serve a parish in the United Kingdom 
with a pastoral ministry that spans almost 2 decades. The 
bishop travels extensively around the world to speak at various 
youth conferences and conventions and is the director of the 
Coptic Church's Media and Communications Office in the United 
Kingdom and for all of Europe.
    We will then hear from Mr. Samuel Tadros of the Hudson 
Institute, a research fellow there for religious freedom and a 
professorial lecturer at the School of Advanced International 
Studies at Johns Hopkins University. His current research 
focuses on Egypt politics, Islamism, and the fate of religious 
minorities. Before joining the Hudson Institute in 2011, Mr. 
Tadros was a senior partner at the Egyptian Union of Liberal 
Youth, an organization that aims to spread the idea of classic 
liberalism in Egypt. In 2007 he was chosen by the State 
Department for its first Leaders for Democracy Fellowship 
Program in collaboration with Syracuse University's Maxwell 
School.
    We will then hear from Dr. Morad Abou-Sabe, who is 
currently professor emeritus and consultant at Rutgers 
University. Previously he served as president and assistant 
chancellor for research and business development at Misr 
University for Science & Technology, a large private university 
in Egypt. In his public and community work he has served on 
many boards, nationally, internationally, and has served as a 
senior adviser to the Commerce Secretary of the State of New 
Jersey. In February 2001 he was nominated for a position in the 
Office of Secretary of Commerce, and he also has served as 
president of the Egyptian-American Professional Society and 
numerous other civic organizations. I had the distinct honor of 
meeting with the professor and a delegation several months ago, 
and his insights were very, very illuminating, and I thank him 
for that.
    We will then hear from Mr. Ted Stahnke, who is from Human 
Rights First, joined it in January 2008, and is the director of 
policy and programs. Prior to joining Human Rights First he 
served at the U.S. Commission on International Religious 
Freedom, where he led the Commission's effort to strengthen 
U.S. foreign policy to advance the right to religious freedom 
and belief. Mr. Stahnke has served on official U.S. delegations 
to human rights conferences and served as an expert in 
international human rights law, training officials from the 
U.S. Departments of State, Justice, and Homeland Security. He 
has authored and coauthored numerous scholarly publications.
    Your Grace, please begin.

STATEMENT OF HIS GRACE BISHOP ANGAELOS, GENERAL BISHOP, COPTIC 
             ORTHODOX CHURCH IN THE UNITED KINGDOM

    Bishop Angaelos. Chairman Smith, first of all, thank you 
very much for the opportunity, and I am thankful to all the 
members who are here as well. I must thank you all for braving 
the weather and coming regardless of all the impediments that 
you must have braved. I am also apologizing for this cold that 
I have, and I assure you it is not caused by your weather. It 
is definitely a British import which I bring.
    I am also very thankful for the witness that I have seen 
here because far too often people who walk these corridors, 
whether in this country or in other places, are accused of 
being self-interested, and they are accused of following a 
personal agenda. What we have heard today is a presence and a 
witness for those who are in need of support and are in need of 
that fraternal relationship. And I somehow feel that in light 
of the last hearing, that my presence here is quite superfluous 
because of everything I have heard and the insight that you 
have.
    Mr. Chairman, I have also submitted testimony for the 
record.
    Mr. Smith. Without objection, yours and that of all of our 
witnesses will be made a part of the record, and any extraneous 
materials you want to add.
    Bishop Angaelos. Thank you.
    Christians, as everyone knows here, have been part of 
Egypt's history for 2,000 years, since the establishment by 
Saint Mark. We are only a numeric minority; we do not consider 
ourselves a minority group, as indigenous people of Egypt. And 
as was mentioned earlier and as is absolutely right, the 
presence of the Christians in the Middle East, the birthplace 
of Christianity, is not only something we should encourage, but 
is actually of great importance, because it is a stabilizing 
factor in the culture of the Middle East and its identity.
    I don't only speak here as a Christian, because that would 
be very un-Christian of me. We speak as Christians for 
everyone, and our view of human rights is for a human rights 
perspective that covers everybody. This hearing was postponed 
for various reasons, and it is only providential that it 
happens today, on this day which is set aside to remember human 
rights internationally. And I think that is the core of this 
testimony and the core of what we will be presenting today.
    The first attacks on minority groups in Egypt was not on 
Christians after the uprising, it was on Sufi shrines. We have 
seen Shiite Muslims killed in the streets, we have seen Baha'is 
treated unfairly, and so if we are looking at equality issues, 
we should be looking at equality across the board.
    During the last administration, of former President Morsi, 
one indication was that in April of this year the Coptic 
Orthodox Cathedral was attacked for the first time in known 
history, in the presence of police forces then looking, on 
while a few days earlier the headquarters of the Freedom and 
Justice Party was attacked and was actually quite substantially 
protected by the same police force.
    So it is this culture that we have seen in the past of an 
impunity that leads toward a lack of equality. There is a 
tendency of oversimplification as well, being either pro-
military or pro-revolution. The presence of Christians is that 
we are Egyptians before anything else and that we want a 
country that actually proposes a movement for all.
    I issued a statement in August of this year warning that if 
incitement continued in Rabaa al-Adawiyah with the Muslim 
Brotherhood's presence there, there would be widespread attacks 
on Christians and Christian places. I am not prophetic by any 
means, but unfortunately only a week later we saw the attacks 
on close to 100 churches and Christian institutions in Egypt. 
That needs a new pragmatic and intentional movement toward 
democracy, not just majority rule, which we saw last time, but 
democracy that represents all, and the new Constitution 
hopefully will take us through that. It will be presented for 
referendum.
    What we need to address at the moment are issues of 
illiteracy and poverty that make constituents vulnerable when 
they vote and when they are indoctrinated, when they are 
manipulated either financially or in terms of ideology, and of 
course religion becomes part of that. What we also need is 
foreign investment to bring people to actually be able to have 
a livelihood and support their families.
    I have seen a lot of stick and far too little carrot when 
speaking about Egypt in that we are very clear on pointing out 
shortcomings, but this is a process that countries that have 
embraced democracy for centuries are still going through, and 
so there are steps forward. I have respectfully heard 
terminology of a military government, and the word ``coup,'' 
whereas this is perceived to be a civilian government; the word 
coup. We have also looked at the happenings of not only January 
25, 2011, as well as June of this year, as an outcry of the 
Egyptian people, Christian/Muslim, secular/religious, man/
woman, young/old, everyone in the streets.
    And so we are hopeful for a new Egypt as long as there is a 
pragmatic and proactive, intentional move toward equality. 
Cases like the Hegazy situation, where we are told there is 
freedom of religion, yet people cannot really freely choose 
their religion.
    We have a vested interest in Egypt moving ahead. We have a 
vested interest in Egypt for all Egyptians. We don't just speak 
as Christians because that, as I said, would be un-Christian, 
but we speak as Egyptians who want a successful a nation as it 
has been for millennia. I would, even as a Christian clergyman, 
love to stop speaking about Christians and Muslims and start 
speaking about the spirit that we had on January 25, 2011, 
where there were Egyptian flags flying in Tahrir Square calling 
for a new Egypt. Unfortunately, those intentions and that 
dynamism were not capitalized on sufficiently. There were 
personal agendas brought in, and there was manipulation of that 
good spirit that then led us down a very, very dangerous path.
    Egypt has a second chance now, and that chance needs to be 
taken. If we see the same activities of the last Presidency 
follow again, I don't know if we will have a third chance. We 
speak as Christians with hope. We have faced persecution far 
greater than this. We are still there as the biggest Christian 
denomination in the Middle East, and as the last actual bastion 
of Christian presence in the Middle East. But above all we 
stand as Christians for human rights for all and for equality, 
both of right, but also of accountability before a law that 
respects every person and brings the best out of every person 
for a nation that embraces every person.
    Thank you.
    Mr. Smith. Your Grace, Bishop Angaelos, thank you so much 
for your testimony and for your leadership.
    [The prepared statement of Bishop Angaelos follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Tadros.

  STATEMENT OF MR. SAMUEL TADROS, RESEARCH FELLOW, CENTER FOR 
              RELIGIOUS FREEDOM, HUDSON INSTITUTE

    Mr. Tadros. Thank you, Mr. Chairman and honorable members, 
for holding this hearing and inviting me to speak today.
    For the past 3 years Egypt has witnessed tremendous 
political change that has resulted in four different regimes 
ruling the country. Unfortunately, under those four regimes no 
improvement has taken place on the question of human rights. In 
fact, there has been a significant deterioration in human 
rights abuses in the country, especially or significantly 
regarding Coptic Christians, which will be the focus of my talk 
today.
    On the 28th of November, just a couple of days ago, two 
attacks occurred in two separate villages in the governate of 
Menya. In the first attack, a mob gathered after a rumor of a 
sexual relationship between a Christian man and a Muslim woman, 
which resulted in the burning of a couple of Christians' homes, 
a couple of people being shot, and ransacking and looting of 
Christian businesses and houses. In the second village, the 
rumor was not of a sexual relationship, but the apparent crime 
was a Christian attempting to build on a piece of land that he 
owns that is viewed as part of the Muslim section of that 
village. As a result, again, we saw this attack, horrific 
attacks, pogrom-like attacks, where the mob moves from house to 
house searching for the people to kill and attack.
    In both cases we have seen a complete absence of the 
Egyptian police from taking any action to stop those attacks 
from occurring, nor is there any punishment for those that are 
responsible for them. We have seen again this habit of 
reconciliation sessions whereby the victims and those attacking 
them are put together in a room supposedly to solve their 
differences outside of the rule of law.
    Under the Mubarak regime, Christians in Egypt suffered from 
both official discrimination in terms of exclusion from the 
public sphere, from government positions, and the police 
absence to protect them, as well as violent attacks by Islamist 
groups, especially in the insurgency, Islamist insurgency in 
the south of the country during the 1990s. However, in the last 
years of Mubarak's rule we have seen the increasing 
participation of ordinary citizens in those attacks, mob-like 
attacks again, that go completely unpunished and unprevented.
    After the revolution, those that had hoped that the 
situation would improve were shocked by the fact that things 
deteriorated. We have seen a reinforcement of previous patterns 
of discrimination as well as an emergence of new patterns, 
especially when we talk about the new phenomena of the 
blasphemy laws that were mentioned in earlier testimony, as 
well as the practice of forced evacuations where the entire 
Christian population of a village would be forced to leave as 
punishment for any affront that a member of the community is 
viewed as having done.
    Under the Morsi government, while the Muslim Brotherhood 
paid lip service to protecting Christians and to inclusion of 
everyone in the new Egypt, we have seen a Constitution that 
completely excluded Christians from the process of writing it, 
a Constitution that enshrined grave limitations on religious 
freedom, threats to religious freedom, as well as sectarian 
rhetoric done by officials in the government, specifically 
advisers to Mr. Morsi, and the Muslim Brotherhood, the ruling 
party, in their official Web sites against Christians, 
Christians being blamed for all problems of the country, from 
train accidents to the continuous deterioration in the security 
situation.
    As a result, we have seen an encouragement, this culture of 
impunity becoming the culture of encouragement to attacks on 
Christians, leading up to this massive attack on the Coptic 
Cathedral, unprecedented in Egypt's history. After Mr. Morsi's 
forceful removal by the military from power, the Coptic Pope 
was singled out as the one responsible for the coup. The coup 
in Egypt is described by the Muslim Brotherhood as the 
Christian coup, the Christians are the ones behind it, the 
Christians are the ones that are being presented as leading to 
it. As a result, we have seen increased incitement against 
Christians, again by Muslim Brotherhood Web sites, official Web 
pages, and in the Muslim Brotherhood demonstrations that have 
specifically targeted churches in their attacks, leading up to 
the massive attack of Christians on the 14th of August, which 
is the largest attack happening against churches in Egypt since 
the 13th or 14th century.
    The new regime's attempt to give the Egyptian police a 
complete free reign in controlling the Islamist violence, in 
dealing with the Islamist question, has meant that the Egyptian 
police has returned to its practices and ability to deal with 
the Christian portfolio as they like, meaning a return to 
practices under President Mubarak.
    I wish to sum up by giving a couple of very clear points 
about what the situation is as we attempt to deal with it. Who 
is attacking the Christians? Unfortunately, it is ordinary 
people. It is no longer just Islamist organized groups that are 
attacking Christians, but it is now possible, it is now very 
likely that ordinary citizens are participating in those 
pogroms.
    Why are they attacking the Christians? The reasons vary. 
Sometimes it is the sexual rumor of a relationship between a 
man and a woman, sometimes it is the rumor that the Christians 
are attempting to build a church, sometimes it is an affront, 
insult perceived by a Christian member to Islam, sometimes it 
is just a land dispute. But whatever the reason, we get the 
situation of the mob gathering, attacking the Christians, going 
home to home, looting, burning, searching for people to kill. 
Now, with a deteriorating security situation, there is an 
increased resortation to or availability of guns leading to 
higher deaths in those situations.
    The government action, there has been no prevention attempt 
of stopping those attacks. Once the troops arrive, when they 
arrive late, there are inadequate troops to deal with the 
situation. They lack any established security protocol to deal 
with such pogroms or such attacks. They resort to random 
arrests of both Christians and Muslims, whereby they attempt to 
pressure both communities into those reconciliation sessions 
and attempt to remove the immediate trigger by, for example, 
stopping the Christians from building the church or removing 
the family that is viewed as insulting Islam from the village.
    The National Government has no political will at all to 
address the root causes of this violence in Egypt or to deal 
with the larger question. As an example to cite, on the 4th and 
5th of July, 2013, a mob gathered in the village of Nagaa 
Hassan, Luxor, to start this attack on Christians. They went 
from house to house searching for the Christians, finally found 
them hidden in one house. They attempted to attack; the police 
arrived. The police, instead of saving those Christians from 
death, then negotiated with the mob and reached an agreement 
whereby the women and children would be saved and the men would 
be left to die. The women begged the police officers, they fell 
on the police officer's legs, begging him to save their 
husbands. He said no, he had given his word to the mob. As the 
police was leaving the room, the men were butchered. Four men 
were killed in that house that day.
    When asked by Human Rights Watch later on, the head of the 
Egyptian security in the governate of Luxor, Major Khalid 
Hassan, replied as to what had happened that he saw nothing 
wrong with the police performance. According to him, and this 
is a direct quote: ``There was no reason for the police to take 
any special measures, it's not [the police's] job to stop 
killings; we just investigate afterward.''
    I would be happy to discuss what can be done about it in 
the question-and-answer session. Thank you very much.
    Mr. Smith. Mr. Tadros, thank you very much.
    [The prepared statement of Mr. Tadros follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Abou-Sabe.

   STATEMENT OF MORAD ABOU-SABE, PH.D., PROFESSOR EMERITUS, 
  RUTGERS UNIVERSITY (FORMER PRESIDENT OF MISR UNIVERSITY FOR 
                     SCIENCE & TECHNOLOGY)

    Mr. Abou-Sabe. Thank you, Mr. Chairman. Thank you for the 
opportunity to participate in this hearing, and I really 
appreciate getting that opportunity here.
    My emphasis in my statement is really not so much about 
Christians and the human rights abuses of Christians, because I 
believe that the Morsi government had actually abused the 
rights, the human rights of all Egyptians, and that is really I 
think something that should really be pointed out. So my focus 
is really more coming into U.S.-Egyptian relationships and, you 
know, the basis for which many of these things have happened.
    So I would say that the events of June 30, 2013, in Egypt, 
which resulted in the ouster of former Egyptian President 
Mohamed Morsi, were in response to the massive and 
unprecedented protests by the Egyptian people. Morsi's 
overthrow was supported by and facilitated by the Egyptian 
military. Since Morsi's ouster, the U.S.-Egyptian relations 
have gone through abrupt changes that threaten and continue to 
threaten the special relationship between the two countries.
    Now, just for a short historical perspective on how we got 
this special relationship, one can only begin by crediting the 
late Egyptian President Anwar Sadat for the start of this 
relationship. When Sadat took his unimaginable and bold steps 
in the 1970s, which were essentially ending the Egyptian-Soviet 
relationship and expelling the Russian advisers on July 18, 
1972, and then making his historic trip to Israel on November 
20, 1977, no one understood at the time what he was doing or 
where he was heading. Sadat ended Egypt's relationship with the 
Soviets at the time that he was preparing for the 1973 war with 
Israel. However, Sadat knew and was convinced that the Arab-
Israeli conflict could only be resolved by the United States 
and that all that matters to the U.S. in the region were Israel 
and the flow of Middle East oil.
    Taking these bold steps, Sadat put Egypt in a most 
precarious position that resulted in his own assassination by 
the Muslim Brotherhood and the isolation of Egypt for many 
years afterwards from the rest of the Arab world. Since then, 
and especially after the signing of the Camp David Accord and a 
peace treaty with Israel, the U.S.-Egyptian relations, however, 
have been at their most cordial levels. This cordial 
relationship, as it may now have become clear, was particularly 
for keeping the Egyptian-Israeli treaty safe. It did not matter 
what the Mubarak 30-year dictatorship had done to Egypt or the 
Egyptian people as long as the peace treaty was safe.
    Now, with the January 25th revolution in Egypt, the U.S. 
administration aligned itself with the Muslim Brotherhood as 
the most organized group among all the political parties and 
political organizations in Egypt. The Muslim Brotherhood were 
deemed to have the highest likelihood to step in the governance 
of Egypt. This new relationship with the Muslim Brotherhood, 
especially after Morsi's election to the Presidency, was 
further strengthened when Morsi was able to secure a cease-fire 
between Hamas and Israel on November 22, 2012.
    It can be assumed that in this close relationship the U.S. 
administration saw the possible venues for the resolution of 
the Palestinian-Israeli conflict, while the Muslim Brotherhood 
saw the possibility of moving forward with their renaissance 
project with the help of the United States. This view is 
supported by, for example, one, the unusual close relationship 
between the American Ambassador in Cairo and the Muslim 
Brotherhood organization outside of President Morsi himself, a 
matter that caused resentment among many Egyptians and 
political party leaders.
    It was most evident when the U.S. Ambassador took upon 
herself to meet with the Muslim Brotherhood officials who had 
no official status in the Egyptian Government. It further 
confirmed that Morsi was, in fact, a figurehead and that 
decisions came from the MB leadership office at Al-Mokattam 
district in Cairo. In the meantime, the Muslim Brotherhood and 
President Morsi were working on establishing legal rights for 
the Palestinians in northern Sinai to buy land and settle in 
the northern Sinai as a prelude to Hamas expansion into the 
Sinai.
    One of the vehicles for achieving that was to grant 
Egyptian citizenship to as many as 50,000 Palestinians in one 
stroke. Former President Morsi was able to do so by changing 
the Egyptian law that defined Egyptian citizenship, which 
applied only to all persons born in Egypt to Egyptian fathers. 
Morsi and the MB simply changed the law to allow all those born 
to Egyptian mothers to become Egyptian citizens, opening the 
door for thousands and thousands of Palestinians whose mothers 
were of Egyptian nationality. Simply it is not. Now the 
Egyptian Government is trying to review these newly acquired 
citizenships.
    Egypt, to Morsi, and the Muslim Brotherhood did not matter. 
There was no understanding of Egyptian sovereignty or defined 
borders. It was just land that they could deal and hand over to 
anybody they wanted.
    Now, the impact of the immediate position taken by the 
United States Government in response to Morsi's ouster was to 
call it a military coup, and Congresswoman Frankel just 
continued to repeat that now. And based on that, the 
administration initiated the process of suspending U.S. 
military aid to Egypt. Such a response by the administration 
represented a clear departure from the U.S. longstanding 
position in support of Egypt.
    It also showed another side to the administration's foreign 
policy toward Egypt. It showed the newly developed alliance 
between the U.S. and Muslim Brotherhood organization and the 
Morsi government, as I pointed out above. Such unlikely 
relationship was a great surprise and disappointment to all 
Egyptians who did not understand why the U.S. would partner 
with an Islamic group that has historically been implicated in 
the types of violence that are characteristic of al-Qaeda and 
its affiliates.
    On the ground, the U.S. administration condemned the 
military overthrow of Morsi and cautioned the Egyptian 
Government against the use of force in dealing with the 
peaceful protesters. Little did Washington know that the Muslim 
Brotherhood protests and sit-ins were actually militarized, not 
peaceful. There was no holdback by the Muslim Brotherhood 
leadership from issuing their numerous public threats from 
their own staged platforms and on live television of the dire 
results if any attempts were made to evict them.
    These were the peaceful protesters who were constantly 
reported by the New York Times and other U.S. reporters in 
Egypt. You could only see the contradiction between what the 
U.S. media reported and what every Egyptian, including myself 
watching from here, was viewing directly and live on Egyptian 
satellite television while listening to the MB's threats. There 
was no hesitation on the part of the Muslim Brotherhood protest 
leadership to admit their role in the terrorism against 
Egyptian military and security that was taking place in the 
Sinai, as they continued to make pronouncements: If the 
Egyptian Government yields to our demands, all violence in 
Sinai would immediately stop. These were the peaceful 
protesters the administration was supporting and the U.S. media 
was reporting.
    There was also a human cost to the U.S. support of the MBs. 
Namely, it cost hundreds of Egyptian lives that were lost from 
both protesters, as well as the security forces, during the 
forcible eviction of the sit-ins. These lives could have been 
saved if the Muslim Brotherhood did not count on the U.S. 
support and would have at least allowed the 8-week mediation 
efforts by the international community to succeed. To this day, 
the MBs believe that they were the aggrieved rather than the 
aggressor and the cause of the violence that they perpetrated. 
They have continued to hold violent protests, block roads, and 
instigate the Egyptian people irrespective of their unrealistic 
expectation of Morsi's return to office.
    In the meantime, former President Morsi was held in custody 
for several months before he was charged in court on the 4th of 
November and was subsequently remanded to prison awaiting 
trial, you know, slated for January 2014. Among the alleged 
charges against Morsi are incitement to murder and, more 
importantly, the charge of espionage, having colluded with 
international organizations against the interests and security 
of Egypt. There is currently a gag order on discussions of 
these particular cases.
    The conflicting signals by the administration with 
statements from the State Department holding on to the U.S.-
Egyptian relations while at the same time other U.S. officials 
continued to call the ouster a military coup played a major 
part in the resistance of the MBs to any kind of mediation and 
resolution. Significant among those were the statements by 
Senator John McCain and Lindsey Graham, who visited Egypt in 
July and met with Morsi. After their meeting they came out and 
in a press conference once again called the ouster a military 
coup. In fact, Senator John McCain in his comments predicted a 
civil war in Egypt as a result. Luckily, this prediction has 
not happened, at least until now.
    These reactions and contradicting statements by U.S. 
officials simply confirmed the ambivalence of the U.S. foreign 
policy toward Egypt. Not only that, but it also implied that 
the U.S. foreign policy in the Middle East has changed and that 
a new agenda may be under development as we speak.
    The same ambivalence was demonstrated by the same U.S. 
administration after the January 25th revolution in Egypt which 
resulted in the resignation of the U.S. longstanding ally 
Mubarak. The unyielding question remains, why was a 
relationship with the Muslim Brotherhood and what was the 
purpose of aligning ourselves with a terrorist organization 
with a long-documented history that backs it up? What was our 
ulterior motive behind this relationship that we would 
undertake at the expense of an ally and a regional power like 
Egypt?
    On June 26, 2013, before Morsi's ouster, a report signed by 
some 20 human rights organizations was published by the Cairo 
Institute of Human Rights Studies assessing the 1-year rule 
under Morsi. The report was entitled ``One Year Into Mohamed 
Morsi's Term, Manifold Abuses and the Systematic Undermining of 
the Rule of Law.'' In this report the many facets of human 
rights abuses were reported undertaken by the Morsi government 
in that.
    Mr. Smith. Mr. Abou-Sabe, unfortunately we are going to 
have to leave the room at 11 o'clock because there is going to 
be a sweep of the room because Senator Kerry will be coming in 
shortly thereafter.
    Mr. Abou-Sabe. Okay.
    Mr. Smith. If you could just sum up, and then Mr. Stahnke, 
and then we will go to some very quick questions.
    Mr. Abou-Sabe. Yes, sir.
    Mr. Smith. Thank you, sir.
    Mr. Abou-Sabe. I will sum up essentially in just a couple 
of words. As Egyptian-Americans, we therefore call upon the 
President and the Congress to carefully examine our role in 
fostering peace and stability in Egypt. It is imperative upon 
us to take the lead in establishing a close relationship with 
the Government and the peoples of Egypt. We need to be mindful 
of the facts behind the events before jumping to conclusions 
and taking other drastic measures as those that have been 
taken. We also call upon the U.S. media to bring the truth 
behind the violence that is perpetrated by the terrorists and 
so forth.
    Thank you very much.
    Mr. Smith. Thank you, Mr. Abou-Sabe. Thank you very much 
for your testimony.
    [The prepared statement of Mr. Abou-Sabe follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Stahnke.

STATEMENT OF MR. TAD STAHNKE, DIRECTOR OF POLICY AND PROGRAMS, 
                       HUMAN RIGHTS FIRST

    Mr. Stahnke. Yes, thank you, Mr. Chairman, Madam 
Chairwoman. Thank you for convening this hearing, for your 
leadership on human rights in Congress. Members of the 
subcommittees, thank you as well. We look forward to working 
with both subcommittees to try to advance human rights 
protections in an increasingly volatile Egypt.
    The rapidly deteriorating situation of Egypt's Coptic 
Christian minority is an alarming symptom of an unresolved and 
worsening political crisis. If left to fester, this crisis 
could further destabilize Egypt and the region, as well as hold 
back the possibility of economic and political reform and the 
protection of human rights, and be profoundly harmful to the 
interests of the United States and our allies.
    As you have heard, there has been an unprecedented 
escalation in attacks against Coptic Christians since August 
14th, when the military violently dispersed those protesting 
President Morsi's ouster. Discrimination against members of 
religious minorities, incidents of sectarian violence that go 
largely unpunished, anti-Christian incitement, and anti-
Semitism have, unfortunately, long been a feature of Egyptian 
life. But the political polarization of the past few months has 
taken violence against Christians to unprecedented levels. Many 
have been killed, well over 100 churches, homes, and other 
properties have been attacked. Perpetrators have not been 
brought to justice. In addition, members of other religious 
minorities have been attacked and continue to be persecuted, 
including Baha'is, Shitte, and Sufi Muslims.
    It is the great misfortune of the Christian Coptic 
community that they are pawns in a highly destructive zero-sum 
political game between the Muslim Brotherhood and the military-
backed national security state. The Morsi government bears 
considerable blame for fueling a climate of anti-Christian 
intolerance when its rhetoric became increasingly paranoid and 
Christians were among the forces said to be conspiring against 
it. And following Morsi's overthrow his supporters, openly 
blamed the Copts for it, claiming that Christian hostility to 
Islam and the idea of a Muslim Egypt led them to conspire with 
the military and hostile foreign powers like Israel and the 
United States. This demonization of Christians has made the 
community more vulnerable to the violence that has followed.
    At the same time, the military-backed government seems more 
interested in pointing to anti-Christian violence as evidence 
of Muslim Brotherhood extremism than in taking effective 
measures to protect Christians from attack. This posture of 
pointing to the violent excesses of Islamic extremists as an 
excuse to resist their own reforms is a familiar throwback to 
the days of Mubarak.
    Egyptian authorities under the SCAF, under Morsi, and under 
the current government have failed to protect the Coptic 
community and to hold accountable those who incite and commit 
sectarian violence. The current government needs to do so. It 
should also remove longstanding restrictions on religious 
freedom, such as abusive blasphemy laws and the decrees banning 
Baha'is and Jehovah's Witnesses. It should enact a 
nondiscriminatory law for the construction and repair of places 
of worship.
    But these recommendations alone, we fear, are inadequate as 
a response to the crisis now confronting Egypt's Coptic 
community and, by extension, all Egyptians. The current 
government and the security apparatus are largely made up of 
the same people who have held power in Egypt for decades. They 
are unlikely to change their ingrained habits on sectarian 
issues and may even see some advantage in assaults against 
Christians continuing, because it supports their narrative. 
Thus, there needs to be progress toward a political solution in 
Egypt, one that includes movement toward political 
reconciliation as a first step.
    Teconciliation is a challenge, as the current government 
has engaged in a brutal and wide crackdown against the Muslim 
Brotherhood and its supporters and has also repressed non-
Islamist critics and repressed fundamental freedom to speech 
and assembly. We detail the deterioration of the human rights 
situation throughout the transition period, and especially 
since Morsi's overthrow, in our written statement. Government 
force is implicated in the mass killings of hundreds of 
protesters since August 14th, the wholesale roundup of Muslim 
Brotherhood political leaders and sweeping charges of 
involvement in violence or terrorism, intensifying restrictions 
on the media and harassment of government critics, the 
increased use of military trials against civilians, and 
incommunicado detention leading to torture.
    This is all familiar. The state security apparatus is back, 
promoting a climate of fear under the rubric of a war on 
terrorism. And to make matters worse, all this is taking place 
against the backdrop of a breakdown in the rule of law and the 
deterioration of state institutions which began under the SCAF 
and continued under Morsi.
    A polarized, increasingly violent Egypt is a serious 
problem for the United States. The White House says that they 
are undertaking a thorough review of Egypt policy, and we 
welcome that. Indeed, supporting repressive governments in 
spite of its abuses has failed in the past, and a major shift 
in U.S. policy is needed to one that puts Egypt's commitment to 
human rights and democratization at its core. We set out 
several recommendations for U.S. policy blueprints, published 
last week, but let me end by suggesting a few of those 
recommendations.
    Working with its donor partners, the United States must 
establish sizable sustained economic incentives for Egypt's 
leaders, including IMF loans, which should be conditioned on 
Egypt adhering to human rights standards. The administration 
suspended some military aid following the coup, and they are 
right to set human rights conditions on full resumption of aid 
to Egypt. If it wishes to benefit from a close cooperative 
relationship with the United States, the Egyptian military must 
use its power to move Egypt back onto a path of peaceful, 
inclusive, civilian-led governance, and this necessarily 
entails some form of reconciliation.
    Some supporters of President Morsi and the Muslim 
Brotherhood should be let back into the political process. 
Credible Islamist leaders need to condemn violence against 
religious minorities, and there is a reduced incentive to do so 
when thousands are in jail, frozen out of the political 
process, and indiscriminately labeled as extremists and 
terrorists. We shouldn't ask Egyptians to accommodate Islamists 
who espouse violence or hatred, but leaving the large part of 
the Egyptian electorate that wishes to support an Islamist 
political party in elections, leaving them disenfranchised is 
not a recipe for stability. The United States should publicly 
promote reconciliation and continue to try to initiate a 
process to advance it.
    And finally, the State Department and USAID should increase 
their efforts, bilaterally and/or multilaterally, to fund 
independent civil society organizations with the capacity to 
monitor government institutions and expose official wrongdoing, 
as well as promote religious pluralism and intolerance. There 
are many influential voices in Egypt who are suspicious of the 
U.S. Government's commitment to democracy. The Embassy in Cairo 
needs to continue to show that, in Washington they need to 
continue to show it, Congress continues to need to speak out 
about it, and the U.S. should be working with other like-minded 
governments to bring about a successful political reform in 
Egypt. Thank you very much.
    Mr. Smith. Mr. Stahnke, thank you so very much for your 
testimony.
    [The prepared statement of Mr. Stahnke follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Again, we are going to have to leave the room 
shortly because of the security sweep in anticipation of 
Secretary Kerry's trip, so what I thought, all of us on the 
panel will go through a few questions, and if you could take 
notes, we will do it all at once, and then you answer those 
questions as you see fit.
    Bishop Angaelos, if I could just say, you mentioned the 
kidnapping of Coptic Christian girls, which is an issue that I 
chaired three hearings on, and Congressman, the chairman, 
Ileana Ros-Lehtinen, was there at each of those hearings. We 
did not get good answers back from the administration. As a 
matter of fact, they failed to raise those issues in any 
substantive way. Could you speak to that very briefly? And 
there are many other issues I would like to ask you, but time 
does not permit it.
    Dr. Abou-Sabe, you mentioned the close relationship with 
the Muslim Brotherhood. Who advised the administration, if you 
know, to do that? I remember when you briefed me in my office 
several months ago, you went to great historical lengths to 
tell me and my staff what the true underpinnings of that 
organization are and the hostility that they bear to so many, 
including other Muslims. If you could speak to that.
    If I could, you mentioned, Mr. Stahnke, about the 
suspicious nature of many toward the U.S. Government. It didn't 
help that when the President spoke at the United Nations he 
talked about our core interest including Camp David Accords and 
counterterrorism and no mention, as far as I could tell, 
whatsoever of human rights. So if you could speak to that as 
well.
    And, finally, the forced reconciliation issue that, Mr. 
Tadros, you spoke to, it seems to me that law enforcement 
should be all about enforcing the law. Somebody commits a 
murder, a rape, burns down somebody's house, you arrest, you 
prosecute, and then you jail based on the evidence. You don't 
force a Coptic Christian or the victim into a 
``reconciliation.'' If you could elaborate on that.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And I want to thank 
our panel for their testimony. Many of these issues are 
heartwrenching issues. And as my friend Ileana Ros-Lehtinen 
knows, I was a Senate staff member for 10 years, and every time 
President Mubarak appeared before our committee--I worked for 
Claiborne Pell at the time--we forcefully tried to make the 
case on behalf of minorities, especially Coptic Christians in 
Egypt, and the house arrest of Pope Shenouda and other issues. 
It is a little bit troubling that those same issues haven't 
changed. In fact, maybe have gotten worse.
    I will say, however, human rights are human rights, whether 
you are a Copt or a Muslim. The fact of the matter is hundreds, 
if not more, of Egyptians have been slaughtered on the streets 
of urban Egypt since the military coup. I had a constituent 
come to see me last week. He had to pick up his brother. He is 
an American citizen, he had to pick up his brother back in 
Cairo. He was shot in the head, one bullet. He went to visit 
the morgue. There were dozens of bodies from protests, street 
protests. Shot in the head. And interestingly the death 
certificate said died of natural causes. And it is an elaborate 
process to get the police to redo the death certificate if you 
want the body. And if you are a Muslim that is a big deal. If 
you are a Christian, too, but there are time limits. Very 
elaborate process to go to the police and get them to admit 
this was homicide, not a natural cause. The trauma is 
extensive.
    And I say that both Muslims and Copts and others in Egypt 
are suffering today. And I would hope, Bishop Angaelos, that in 
the Christian view you and I share it encompasses the violation 
of the human rights of Muslims as well as Copts, because in 
your safety is also theirs and in theirs is also yours. And I 
wonder if you might comment a little bit about that from your 
perspective.
    And, Mr. Stahnke, I thank you so much for acknowledging 
those points, because I think as we move forward in the United 
States we have got to deal with the political reality of how do 
you put together a coalition that can work moving forward, that 
encompasses all of the points of view of Egypt.
    Thank you, Mr. Chairman.
    Mr. Smith. Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman.
    Two questions, one on the draft Constitution and the second 
on the NGOs. As we know, Morsi rammed through a Constitution 
that severely restricted all rights, women's rights, religious 
rights, ethnic rights. And although the referendum passed, it 
only had a 33-percent voter turnout. Now we have got this draft 
Constitution. In theory it recognizes the rights of Jews, 
Christians, and Muslims, but leaves other religious minorities, 
such as the Baha'i community, unprotected. What can we do to 
ensure that the new Constitution would not restrict the 
fundamental rights of any Egyptian and that real progress is 
made, not just in theory but in practice?
    And on the NGO convictions, they still have not been 
overturned. The draft NGO law that is proposed will have many 
of these NGOs still fearful if they continue operating in 
Egypt. What can we in the U.S. do to ensure that the Egyptians 
have what they need to build the capacity, foundation for a 
strong democracy? What do you think that the future of the NGOs 
will be? Thank you, Mr. Chairman.
    Mr. Smith. Ms. Frankel.
    Ms. Frankel. Thank you, Mr. Chair.
    First, I just want to say that, for me, I say freedom of 
religion is like the H<INF>2</INF>O of human rights. What water 
is to the body, for many people freedom of religion is the 
water for their soul. So I want to emphasize that. And so when 
I was in Egypt, I think I mentioned that we met with Coptic 
Pope Tawadros II. He shared stories with us of the burning of 
the churches and the oppression, showed us photos, and so 
forth.
    My first question is, do you believe that this concept of 
freedom of religion is recognized universally in Egypt? Is it 
something that most Egyptians even know or feel?
    And then the other issue I would like you to comment on, 
and I think it was raised by Mr. Rohrabacher, I think he was 
getting there, which is, you know, there is a concept called 
``first, do no harm.'' And so my second question would be 
really is, what about Israel, the stability of the Middle East? 
There has been some suggestions of us perhaps withdrawing 
support or having certain conditions for support of the 
military. I would like you to comment on that.
    Thank you, Mr. Chair.
    Mr. Smith. Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman. If I could get these 
questions answered, to my staff, I guess. They are not going to 
comment later. Is that right, Mr. Chairman? We are out of time? 
Oh, they are going to comment, okay.
    For each of you, what do you view as the greatest hope of 
the Jews, the Christians, and the Muslims? What is their 
greatest hope? And how do we reconcile those differences? And 
that is pretty simple, isn't it? And I yield back.
    Mr. Smith. Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    Here we are stuck with trying to figure out whether we are 
going to use our heads or whether we are going to use our 
hearts, and whether there is a contradiction in America's soul 
about these very questions that we are talking about today. We 
must obviously be committed to our ideals, and yet we must also 
understand if we do not have a commitment to a practical policy 
we could end up bringing the world and bringing ourselves to 
the opposite of where our ideals would have us go.
    So I would suggest that finally where does this all land us 
for this hearing? And that is, and I would just like to state 
and get your opinion on it, denying spare parts to the Egyptian 
Army at this moment would not lead to a better world and to a 
better situation in Egypt, and that is my analysis of it. What 
is your response to that?
    Mr. Smith. And Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    I will just ask each of you to submit for the record, if 
you would, where the Egyptian people view five inconsistencies 
in U.S. foreign policy. Inconsistencies. And so where do the 
Egyptian people see where we are saying one thing and doing 
another? If you could do that.
    And I yield back. Thank you, Mr. Chairman.
    Mr. Smith. Your Grace, if you could begin, and each of our 
distinguished witnesses.
    Bishop Angaelos. Thank you, Mr. Chairman. On the view of 
the kidnapping of those, of course, as has been mentioned 
numerous times, there is an inequality before the law, and so 
the way that the matters are investigated sometimes depends on 
who is on the receiving end of the alleged criminal action. And 
so I think what we have seen is in times there have been forced 
conversions. There have been forced kidnappings. At those 
times, security forces have been reluctant to investigate. Even 
if the outcome of the investigation is that it was an 
intentional action, or it was a personal choice, the 
investigation needs to be transparent, needs to be honest, and 
we haven't seen those. What we have seen is where calls have 
been made in particular cases that have been proven to be 
forced. They have been set aside because they have been 
designed not to cause offense to particularly majority Muslim 
areas where that could cause trouble for the security forces.
    So there are, just as in the case where people were 
attacked in their homes and this deal was struck, sometimes 
similar things are done to ensure that there is some sort of 
equilibrium kept at the expense of the Christian community 
there, of course.
    Mr. Smith. Mr. Tadros.
    Mr. Tadros. A couple of on the general questions. I think 
there are definitely huge abuses of human rights in Egypt, not 
only to Christians, as the honorable Member pointed out, the 
massacre of Muslim Brotherhood supporters was probably the 
largest such massacre in Egyptian history, and it is an 
extremely polarizing event. I know it is easy to talk of the 
Egyptian people, but there are divisions within those people. 
The Muslim Brotherhood continues to have supporters. Exact 
figures are hard to tell, of course, because we didn't have an 
election. Street demonstrations are hard to count and hard to 
determine who has more supporters on the street, so there is a 
continuous polarization today in Egypt, and there is no plan on 
how to solve that situation.
    Egypt is not transitioning to democracy. There is an 
attempt to rebuild authoritarian regime with some changes as to 
different shaping just from what was under Mubarak, but there 
is no attempt to create a serious democracy in Egypt at all. 
People have a lot of anger--both sides in Egypt have a lot of 
anger toward the United States, and part of it is simply 
conspiracy theorizing and active propaganda by the various 
groups, whether it is the Muslim Brotherhood or the Egyptian 
military to paint the United States as an enemy and to use that 
as an attempt to shore support for the various sides.
    Specifically, to the rule of law, I think there has been a 
lot of focus on general words. We need to have a general 
situation where people in Egypt are all treated equally. These 
are all nice words, but the important things, the specifics 
that can deal with that situation, I would like to suggest a 
few.
    First, identification. It doesn't take a genius to identify 
what are the most vulnerable villages in Egypt that are likely 
to witness attacks. Experts on the situation of Christians in 
Egypt could have told you before the 14th of August that the 
governorate of Menya was likely to have the most attacks. So, a 
process needs to be there where the 100 most vulnerable 
villages can be identified. The Egyptian Government should be 
urged to do that. The U.S. might be able to help, giving 
resources to help that process to happen;, it is important to 
prevent those attacks from happening at the first place.
    Secondly, the Egyptian police needs to have a security 
protocol to deal with mob violence. Again, if this situation 
has been repeating itself one time after the other, there needs 
to be a clear security protocol on how to deal with those 
specific incidents.
    Thirdly, a crisis office in the Egyptian Presidency that 
has actual power to deal specifically with that issue so that 
it is not an issue left to each local governor or local police 
station to deal with, but there is a headquarters that deals 
with it.
    Fourthly, a rapid response unit whereby once the situation 
is created in one of those villages, and that office 
immediately sends a rapid response unit to deal with that 
situation in the village.
    Fifth, the reform of the legal system in terms of having 
actual punishment, giving up on those reconciliation sessions, 
punishing those people that attack the Christians.
    Lastly, a localized reward and punishment system. Again, if 
the governorate of Menya witnesses the most attacks on 
Christians and the local authorities there are not willing to 
protect the religious minorities or the worst violators of 
human rights, then probably the governorate of Menya should not 
be receiving U.S. funding through USAID. Perhaps the 
governorate of Sohad, which has a better performance on those 
issues would get more USAID funding of that regard, so 
localizing both punishment and rewards for the governorate in 
an attempt to enforce the local governors and the local 
authorities to deal with those specific issues.
    Mr. Smith. Thank you. Thank you. Dr. Abou-Sabe.
    Mr. Abou-Sabe. Thank you. The first question--I thank you, 
Mr. Chairman. Your first question is about what was behind 
this, and I don't really have any particular evidence, but what 
the news media in Egypt have reported on throughout early this 
year, essentially that there may have been some sort of an 
agreement of sorts for, more or less, annexing a portion of the 
northern Sinai with Gaza for the benefit of the solution of the 
Palestinian-Israeli problem, and in essence, that that portion 
of the Sinai was going to be used to allow additional 
Palestinians, to come in, and that really was--so the Muslim 
Brotherhood was essentially the entity that came in the right 
time that would allow that to happen because of its close 
relationship with Hamas and all that, and the idea was 
essentially to establish an arc of ``moderate Islamic states,'' 
essentially, you know, between Egypt, Gaza, and Turkey, and 
obviously that all was really very, very incorrect and bad.
    In terms of the U.S. foreign policy, the question, the 
question that was asked about U.S. foreign policy, I think it 
is important that--there is a whole feeling in Egypt among the 
people that, you know, people are like, you know, conspiracies, 
in essence, that there is a fear that the U.S. may be, as well 
as other countries, may be embarking on a redefining of the 
Middle East, and I think Secretary Condoleezza Rice had 
publicly stated in many situations that we are redrawing, we 
are going to create some chaos and some havoc and there will be 
some instability, and out of this instability we might end up 
with some democracy and maybe with the democracy that we get, 
then we need to really redraw the map of the Middle East in the 
way that we can actually have an impact on the outcome itself.
    So, I mean, it is a very long story, but the suspicion is 
there. And I am not in agreement to people that say that the 
aid is an essential part for Egypt. I think it is not. It is 
really the relationship and the support for the development of 
the country, allowing the country to utilize its resources, 
allowing it to use its human resources is very, very important 
in Egypt.
    And the last point that I will say essentially, religious 
freedom, the question I was asked about religious freedom. 
Islam came to Egypt 1,400 years ago, and until the Muslim 
Brothers came into the picture last 1\1/2\ years or 2 years, 
everybody in Egypt had the full opportunity to practice his 
religion, whatever it was. I grew up in Egypt, and when I was 
in the grade school and high school, most of my friends were 
Christians, and actually I had a Jewish friend as well, Eliahu 
Cohen, and never had any difference. My name is Morad, which is 
not an Islamic name.
    I was many, many times confused that I was also a Copt, so 
it was not an issue until the Muslim Brothers came in, and that 
is why it is important to really recognize that. Freedom of 
religion in Egypt is there always, has always been there. Thank 
you.
    Mr. Smith. Thank you. Mr. Stahnke.
    Mr. Stahnke. Thank you. Well, Mr. Chairman, I think it was 
unfortunate that the President did not mention human rights in 
his U.N. speech. That was a missed opportunity to be clear 
about what the United States stands for, and this 
administration and previous ones have shown an ambivalent 
relationship to promoting human rights and democracy in Egypt 
and in the region, and we are hoping that the policy review 
that the administration says that it is undertaking will make 
it clear and actually reorder U.S. priorities to focus more 
clearly on democratic and human rights developments.
    Now, the President's comments do, I think, get a little bit 
to what the question Mr. Rohrabacher had about in terms of our 
head and our hearts. But in my view, there is a difference 
between spare parts and aid for the Egyptians to conduct 
counterterrorism and border security and even some of the 
specific things that Mr. Tadros mentioned about protecting 
civilians.
    The difference between that and sort of prestige weapons 
systems, some sort of false sense of balance of military power, 
I think that the US aid relationship can be looked at and 
reformed and reordered to bring about a mix of carrots and 
sticks, conditions, but also the promise for significant 
economic development. I think the Bishop mentioned that, you 
know, that the country is in dire need of economic development, 
and you know, the Saudis can give cash, but the West can bring 
about investments. Stability can help bring about tourism again 
in the country. This is the type of economic development that 
the country needs and that the United States and its Western 
partners and the IMF can bring about, but they should do it in 
a phased way in response to serious reforms on some of the 
human rights issues that Mr. Connolly mentioned as well as the 
religious freedom issues that we are talking about today.
    Mr. Smith. Thank you, Mr. Stahnke.
    Again, because of the sweep that is pending for Secretary 
Kerry's testimony, the hearing is adjourned. I would ask 
everyone if they could leave the room immediately so they can 
come in and do the sweep, and I thank you so much for your 
tremendous insights and for your expert testimony. Hearing is 
adjourned.
    [Whereupon, at 11:15 a.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     <F-dash>\\<box>a<star><pound>ws <because><F-dash><Register>s\

Response from Mr. Samuel Tadros, research fellow, Center for Religious 
                       Freedom, Hudson Institute

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   <F-dash>\<diamond>b<pound><brit-pound><ellipse><Hoarfrost>ab<box> 
                     <F-dash><func.-of><Register>\

Material submitted for the record by Morad Abou-Sabe, Ph.D., professor 
 emeritus, Rutgers University (former president of Misr University for 
                         Science & Technology)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
